<html>
<title> - KENYA'S 2013 ELECTIONS: AN EFFECTIVE ASSISTANCE MODEL?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                        KENYA'S 2013 ELECTIONS: 

                     AN EFFECTIVE ASSISTANCE MODEL?

=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2013

                               __________

                           Serial No. 113-73

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
80-461                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Paul Fagan, regional director for Africa, International 
  Republican Institute...........................................     5
Keith Jennings, Ph.D., senior associate and regional director for 
  Southern and East Africa, National Democratic Institute........    14
Mr. Bill Sweeney, president and chief executive officer, 
  International Foundation for Electoral Systems.................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Paul Fagan: Prepared statement...............................     8
Keith Jennings, Ph.D.: Prepared statement........................    17
Mr. Bill Sweeney: Prepared statement.............................    26

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
Keith Jennings, Ph.D.: Material submitted for the record.........    54


         KENYA'S 2013 ELECTIONS: AN EFFECTIVE ASSISTANCE MODEL?

                              ----------                              


                        TUESDAY, APRIL 16, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The committee will come to order and good 
afternoon. Let me apologize first to our very distinguished 
witnesses for the lateness. We did have a series of votes. 
That's the only reason why we are late, but again, it infringes 
on your time, so thank you for your patience and to everyone 
who is here today.
    Good afternoon. Today's hearing will examine U.S. actions 
to support the March 2013 elections in Kenya, a critically 
important African ally. The United States has devoted more than 
$35 million since 2010 alone to prepare for and manage this 
year's election process. After the massive violence following 
the closely contested December 2007 election, many precautions 
were taken to prevent a similar occurrence in 2013. And 
Election Day and post-election violence has been greatly 
reduced. However, an effort to use new technology did not work 
as well as hoped. There were questions about the effectiveness 
of this election which had promised to be a technological 
advancement. Given future important African elections, this 
hearing will look at what a responsible U.S. position toward 
African elections should look like in an era of constrained 
development aid budgets.
    The tragic Election Day deaths of 19 people, although 
attributed mostly to Islamist separatist elements and not to 
specifically election-related causes, cannot be ignored and the 
perpetrators must be held to account. It is unacceptable that 
in the violence that followed the 2007 elections an estimated 
1,200 Kenyans, and there are different estimates, some say 
1,000, some say more, were killed and approximately 600,000 
were displaced according to the media reports. Yet, no one thus 
far has been held accountable.
    Kenya, this year, conducted its first election under the 
2010 Constitution. In addition to voting for a president and 
members of the National Assembly, Kenya selected members of a 
new Senate, as well as governors and local assembly 
representatives in the 47 newly-created counties, each with a 
designated women's representative.
    More technology was brought into polling places to better 
ensure accuracy of voting and vote tabulation. Unfortunately, 
reported malfunctions of some equipment in some polling 
stations at the national level where a server breakdown for a 
while stoked fears of vote rigging. If the court process had 
not been handled as well as it was, we might be looking at 
another wave of post-election violence.
    Uhuru Kenyatta was elected President, as we know, with 
6,173,433 votes to 5,340,546 votes for Mr. Odinga. And this was 
certified by the Kenyan Supreme Court which coincidentally 
today issued a further elaboration and made very clear that 
although there were some anomalies, this election was indeed 
properly conducted. Nevertheless, the violence was a 
possibility until Mr. Odinga gave a magnanimous concession 
speech following the first court ruling.
    The amount of U.S. support for the Kenyan election was 
extraordinary. American and Kenyan civil society organizations 
were enabled, in order to conduct civic education, including 
ratio and television messages, and programs aimed at youth to 
encourage participation in the election process, as well as to 
discourage violence. Youth organizations were created 
nationwide to give young people an enduring voice in their 
country's political system. Several innovative approaches were 
created including a comic book called Shujazz with young 
characters involved in commenting on the Kenyan political 
process.
    The three organizations presenting testimony today all 
played major and very important roles in the creative 
preparations for the 2013 Kenyan election. The International 
Republican Institute printed nearly 1.2 million sample ballots 
and 400,000 election posters for the IEBC and also distributed 
some 800,000 Shujazz posters. The National Democratic Institute 
conducted an important poll on voter attitudes heading into the 
election, covering such issues as whether the country was 
headed in the right direction, whether their lives will improve 
in the next 5 years, whether the election posed a security 
threat to them in their community, and whether they felt others 
were being encouraged to do harm to their ethnic group because 
of the elections. Of course, these organizations did so much 
more which will be elaborated on in their testimony.
    The International Foundation for Electoral Systems advised 
Kenya's Electoral Commission on the process to conduct an 
election where there were 1,882 different configurations of the 
ballot, depending on the local races being run--an enormous 
undertaking. The cell phones necessary for reporting of vote 
totals from polling stations were so late in being procured, 
however, that IFES went ahead and purchased 1,200 to send into 
the field in time for Election Day.
    Despite the extraordinary efforts by NGOs in preparing for 
the Kenyan election, we must be selective in what lessons we 
take from this experience. We will not be able to devote such 
resources to what will be several important elections yet to be 
held in 2013 in other countries.
    The U.S. Government has pressed both the Governments of 
Mali and Madagascar to hold elections at the earliest possible 
date in order to normalize relations after coups replaced 
elected leaders. Zimbabwe, which recently held a constitutional 
referendum, is scheduled to hold a Presidential and legislative 
elections that many in that country hope will break the long 
cycle of repression of political opposition. There was a report 
in today's newspapers that the Zimbabwe leaders are looking for 
funds because they are short in terms of election monitoring-
type funds. So they're making an appeal as well. The next 
election in Ethiopia will replace the late Prime Minister Meles 
and also will determine whether the political opposition will 
have more space to operate than in previous elections. I'll 
never forget Greg Simpkins and I traveled right after one of 
the marred elections. Even though the opposition made 
significant gains, people were literally gunned down in the 
streets of Addis, and we were there to raise those issues with 
Prime Minister Meles, but hopefully the next election will be 
really, truly free and fair.
    These elections are important to U.S. foreign policy as was 
the election in Kenya. So how do we ensure that they are 
successful and truly represent the will of the voters if we 
can't devote the resources as we did in Kenya? What role do we 
have to play going forward? This is the question we put to 
today's witnesses whose organizations have broad experience 
with African elections and have a unique viewpoint that we hope 
will allow Congress and the administration to agree on funding 
for a policy that is fiscally sound while being politically 
effective. This hearing comes at a critical time since Congress 
is currently considering our budget for foreign affairs, so I'd 
like to yield to my friend and colleague, Ms. Bass, for any 
opening comments.
    Ms. Bass. Thank you, once again, Mr. Chairman, for holding 
today's hearing on Kenya's recent election and what we can 
learn from this important period in the country's history, both 
politically as well as socially. Kenya is an important 
strategic partner to the United States and the most recent 
election provides an opportunity to not only better understand 
elections in this East African nation, but important lessons 
for the continent as a whole.
    I want to also acknowledge and thank today's witnesses. 
Each of you in your organizations participated in the recent 
elections and you should be congratulated for your work, not 
only in Kenya, but across Africa to ensure free and fair 
elections are observed everywhere.
    I want to make clear from the outset of this hearing that 
this committee turns its attention to the Kenyan elections 
because of its importance to the region and the continent. 
Kenya is said to be the economic engine of East Africa and 
enjoys a thriving private sector that drives growth and 
development. And as we address Kenya's election, we do so 
knowing very well that our own country faces many challenges to 
ensure that all citizens exercise their right to vote without 
fear of disenfranchisement and intimidation. The right to vote 
is at the heart of our democracy and is cherished among those 
we hold dear.
    Kenya deserves praise for permitting the courts, rather 
than violence, to determine its bright future. In the aftermath 
of 2007, Kenya endured a dark period that reminded us all of 
what's at stake. While there were pockets of violence, this by 
far was the exception rather than the rule. I believe the 
response following the March 4th election and court ruling made 
clear that Kenyans chose a future that adheres to peace and the 
rule of law.
    In reviewing Mr. Sweeney's remarks for today's hearing, I 
found his framework for evaluation of the recent election to be 
both informative and useful, and if you don't mind I would like 
to paraphrase from your statement in phrasing how we might 
consider the recent elections. You wrote, ``Did this most 
recent election reflect the will of the people? Were the 
investments made in the democratic process well spent? And did 
they allow important advances to take hold?''
    In particular, I'd like to know what your thoughts are. Mr. 
Chairman gave several examples of some of the work of the NGOs 
in terms of the posters, the comic books, and all of that and I 
would like to know your opinions as to whether or not, from all 
three of you, as to whether or not you thought that really made 
a big impact.
    I would like to add an additional question to this 
thoughtful and pragmatic list. Do the steps taken and 
investments made provide a model for elections in other 
countries throughout Africa? As we've seen in the last year, 
African nations with some significant exceptions have embraced 
democratic processes, the rule of law, and peaceful 
transitions. Whether through elections or constitutional means, 
countries like Senegal, Ghana, Sierra Leone, and Malawi 
illustrate a strong and I believe lasting shift toward 
democracy. I would add that we learn much from our success as 
we do from those things that did not go according to plan.
    As we will hear from today's witnesses, our focus should 
cover the broad diversity of success and the obvious 
challenges, the activities that worked well, in addition to 
those that failed to accomplished its stated objective. As the 
Congressional Research Service notes, the Kenyan Constitution 
brought major changes to the government, established new checks 
and balances and a more deliberate separation of powers and 
evolving considerable powers to a new county level of 
government. And important changes were made to the 
administration of the elections, notably, the introduction of 
new technologies designed to enhance the transparency of the 
process and credibility of the results. Some of these reforms 
worked well and while others proved to be inefficient or 
ineffective and maybe you could comment specifically where you 
thought what was insufficient and what wasn't effective. Delays 
in voter registration and the problems with election equipment 
resulted in poorly coordinated voter programs. A lack of voter 
education, voter buying and intimidation concerned domestic and 
foreign observers alike. But these are the challenges of a 
relatively new democracy and a country, I believe, that is 
committed to improving and strengthening its institutions.
    Kenya's new President must take heed of the many challenges 
that were experienced during this most recent election and move 
swiftly to show to all Kenyans that the new government is 
willing to build a culture of unity that is inclusive of the 
country's 50 ethnic groups. The challenge may be great, but the 
opportunity is even greater.
    I firmly believe that Kenya's future has never been 
brighter and with the election now over, Kenyans proved that 
the rule of law prevailed over the stinging violence of '07. 
Thank you, and I look forward to hearing from today's witnesses 
and I yield to the chairman.
    Mr. Smith. Thank you, Ms. Bass. I'd like to now introduce 
our distinguished witnesses.
    Beginning with Mr. Paul Fagan, who began his career at the 
International Republican Institute in 1995. He currently serves 
as the Regional Director for Africa where his duties include 
oversight of the programs in Kenya. He served as IRI's first 
East Africa Resident Regional Director based in Kenya and 
oversaw IRI's programs and Kenya's historic 2002 elections and 
also implemented IRI's first series of political party programs 
in Somaliland. He later served as Acting Deputy Director for 
Africa and then served on election observation missions in 
Afghanistan, Azerbaijan, Georgia, Kenya, Liberia, Nigeria, 
Somaliland, and the Ukraine.
    We'll then hear from Dr. Keith Jennings, who is a Senior 
Associate and Regional Director for Southern and East Africa 
for NDI. Over the past 15 years, he has represented NDI in 30 
countries working on a range of governance, civil society, 
political party, and election programs. He has managed several 
of NDI's largest programs, having served as the Institute's 
Country Director for Liberia, Mozambique, Nigeria, South 
African, and Zambia, among others. He is author of numerous 
popular and scholarly articles on a range of human rights and 
democratic development subjects. He has also been a frequent 
media commentator on foreign affairs.
    And then we will hear from Mr. Bill Sweeney who serves as 
the President and CEO of the International Foundation for 
Electoral Systems or IFES. Prior to these positions, he also 
served on the board of directors and was chairman of that 
organization. He has a life-long background in democracy 
promotion and public policy with considerable experience in 
both the public and private sectors. He was deputy chairman of 
the Democratic National Committee and executive director of the 
Democratic Congressional Campaign Committee. He has also been 
an official election observer in the Philippines, Russia, 
Jamaica, and Nicaragua.
    Mr. Fagan, if you could begin, and welcome to all three of 
you.

  STATEMENT OF MR. PAUL FAGAN, REGIONAL DIRECTOR FOR AFRICA, 
               INTERNATIONAL REPUBLICAN INSTITUTE

    Mr. Fagan. Chairman Smith, Ranking Member Bass, and members 
of the subcommittee, thank you for the opportunity to testify 
today along with my colleagues from NDI and IFES with whom we 
work closely with around the world. Since its independence 50 
years ago, Kenya has been a strategic ally of the United 
States. IRI has been active in Kenya since 1992 and has worked 
to strengthen democratic institutions ever since. The recent 
March elections signaled many changes for the nation.
    Mr. Chairman, I believe that it is important to talk about 
the challenges Kenya has faced leading up to these elections, 
examine the democratization process the country is undergoing 
and then discuss ways in which the United States can continue 
to foster a strong relationship with its strongest ally in East 
Africa. Furthermore, the recently concluded general elections 
and the comprehensive approach of United States assistance 
should be examined as a possible model for future electoral 
assistance in Kenya and other African countries.
    The flawed 2007 Kenyan elections and the senseless violence 
that followed signaled to the world that democratization is an 
ongoing process that can be derailed if it is not supported. 
After the international community stepped in to help broker 
peace in Kenya, it was clear that more was needed to preserve 
the progress made over the years. The result of the efforts 
occurred on March 4, 2013 when Kenyans overwhelmingly went to 
the polls. The number of voters was not only large, but the 
most ever, with more than 86 percent of registered voters 
participating in the election.
    Five years on, and Kenyans have emerged from a dark chapter 
in their nation's history. While Kenyans today are largely 
optimistic about the future of their country, this optimism and 
the reforms of the past 5 years faced a crucial test on March 
4. In the lead up to these elections, there were signs of 
progress as well as concern. A particular emphasis should be 
focused on the Independent Electoral and Boundaries Commission 
or the IEBC, the judiciary, the media, civil society and 
political parties. All of these institutions deserve credit for 
the role they play to ensure a peaceful process, but many 
Kenyans still have concerns about them.
    The institution that still remains at the center of 
discussion is the IEBC, which organized a relatively good 
election. However, there were moments that could have derailed 
its efforts such as the delayed voter registration process, the 
failure of the electronic voter identification machines on 
voting day and many in the voting centers, and the flawed 
electronic submissions results process.
    Kenyans had expected the Presidential results within 48 
hours, but due to the flawed electronic results system, results 
were not shared until March 9, 5 days after the conclusion of 
the election.
    The political parties need to continue to be reformed with 
a focus on party finance laws, inclusion of marginalized groups 
such as women and youth, and being run more transparently. 
Women, in particular, were supposed to be big winners in these 
elections, but they were not and the parties could have played 
a much more positive role in getting women elected.
    Generally, the media contributed to a peaceful election by 
broadcasting accurate and balanced stories. News outlets 
reminded Kenyans to keep the peace and many articles were 
written about the need to avoid political violence. And civic 
and nongovernmental organizations played a significant and a 
central role in Kenya. In the lead up to elections, civic 
organizations were invaluable to the electoral process and it 
is important to maintain their ability to participate in the 
future.
    Lastly, Kenya's judiciary was key to the success of these 
elections. It was front and center throughout the process. 
Reforms to the judiciary had gone and laid the groundwork for 
the type of competence witnessed during the Supreme Court 
hearing on Raila Odinga's petition. The court proceedings were 
made live on television allowing millions of Kenyans to tune 
in, watch the proceedings, and then decide for themselves how 
they feel about the process. These elections demonstrated that 
Kenyans can and will turn to their courts for justice.
    It cannot be ignored that each of the sectors mentioned 
above, the IEBC, the political parties, the media, civil 
society, and the judiciary all benefitted tremendously from the 
international community. Kenyans and Kenyan institutions, of 
course, deserve the credit, but the donor community's role was 
significant. In particular, it was clear that the United 
States' electoral assistance, led by the United States Agency 
for International Development or USAID, was important when it 
came to team work and building synergies at all levels among 
implementers in Kenya. Kenya benefitted from this holistic 
approach and as such, no stone lay unturned in the efforts to 
support Kenyans in having a peaceful and successful election.
    IRI, in particular, benefitted from USAID support, but we 
have to thank the National Endowment for Democracy for its 
continued support for IRI's programs there as well and its 
continued support for democracy in Kenya and around the world.
    Overall, IRI remains optimistic about the progress made 
throughout the elections process. We recognize that more work 
needs to be done. However, there are obvious issues to 
reconcile regarding the future of the United States relations 
with Kenya. President Uhuru Kenyatta and Vice President William 
Ruto have been indicted by the ICC for claims that they incited 
violence immediately following the 2007 elections. It remains 
unclear how our Government will interact with Kenya moving 
forward. It's a difficult situation.
    Mr. Chairman, Kenya has the ability to lead the way in 
Africa for key reforms that embolden marginalized groups and 
give all citizens the ability to freely and openly participate 
in their government. If this works, Kenya will be a success 
story in Africa and beyond. IRI is committed to continuing its 
efforts to promote democratic governance throughout Kenya by 
empowering local governments and providing them with the 
support they need to be successful. We believe that, in turn, 
the devolution process will be stronger and provide greater 
opportunities for all Kenyans. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Fagan follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so very much.
    Dr. Jennings.

   STATEMENT OF KEITH JENNINGS, PH.D., SENIOR ASSOCIATE AND 
   REGIONAL DIRECTOR FOR SOUTHERN AND EAST AFRICA, NATIONAL 
                      DEMOCRATIC INSTITUTE

    Mr. Jennings. Thank you, Mr. Chairman, members of the 
subcommittee. NDI is very happy to have this opportunity to 
comment on the March 4th elections in Kenya.
    NDI has worked in Kenya since the mid-1990s and for the 
last 5 years has concentrated on helping to facilitate 
peaceful, credible processes around the 2010 Constitutional 
Referendum and on peaceful and credible elections in 2013, as 
well as continued progress beyond them. Mr. Chairman,
    NDI's electoral programming in Kenya addresses six areas.
    The Institute's work to promote dialogue among the 
political parties, the Registrar of Political Parties, and the 
Independent Elections and Boundaries Commission, through the 
Political Parties Liaison Committees--nationally and at the 
county level in all 47 counties--created a sustainable 
foundation for political dialogue at the county level going 
forward, as well as the national stocktaking on the election 
processes.
    By facilitating Kenya's first multi-party youth work 
through the Inter-Party Youth Forum, hundreds of emerging 
leaders forged relationships that served as a brake on violence 
across the country in a manner that can continue to contribute 
positively over the years ahead.
    NDI's support for increased women's political participation 
and representation included training more than 700 women and 
supporting 96 women candidates to share their platforms through 
radio prior to party nominations. This led to more women being 
nominated for positions in party primaries and promoted more 
women as political leaders at the community level.
    NDI's engagement with civil society organizations working 
to ensure the participation of persons with disabilities 
improved advocacy and awareness of marginalized groups in the 
March elections and also a stronger focus among the 
organizations themselves to continue working for their rights 
within the political system.
    NDI also provided technical assistance to 11 faith-based 
and civil society organizations that forged the ELOG, the 
Election Observation Group, which conducted long-term 
observation and independent verification of the Constitutional 
Referendum and the 2013 Presidential election through highly 
accurate Parallel Vote Tabulations. ELOG's PVTs confirmed that 
the official results were within the range of statistical 
projections, and ELOG also identified areas of action for 
improving the process going forward.
    As you said, Mr. Chairman, NDI also conducted survey 
research on a regular basis that informed a range of political 
actors and the organization also conducted an early pre-
election delegation that was headed by the former Botswana 
President, His Excellency Kitimele Masire that laid out a 
number of gaps in the process that allowed the election 
commission to address those.
    Mr. Chairman, NDI's activities are supported by a wide 
variety of international funders including the U.S. Agency for 
International Development, the State Department's Bureau of 
Democracy, Human Rights, and Labor, the Norwegian Ministry of 
Foreign Affairs, the Kingdom of the Netherlands' Ministry of 
Foreign Affairs, and the United Nations Development Program.
    The financial assistance that NDI receives, especially from 
USAID, occurred ahead of the elections allowing sufficient time 
for the Institute to plan and implement a range of long-term 
activities and also to respond to last-minute contingencies. We 
believe the funders understood what was at stake in the 
elections in Kenya and responded accordingly.
    Mr. Chairman, an accurate and complete assessment of any 
election must take into account all aspects of the process and 
no election can be viewed in isolation from the political 
context in which it takes place. It should also be noted, no 
electoral framework is perfect, and that all electoral and 
political processes experience challenges. The March 4 
elections in Kenya were the most complex in the country's 
history. Six elections took place on the same day with a 
completely new legal framework for both political parties and 
the election management bodies. As you mentioned, we should 
also remember that more than 1,000 people had perished in the 
last election and 600,000 or more displaced.
    Mr. Chairman, I would like to emphasize that NDI did not 
conduct a comprehensive international election observation 
mission for Kenya's election and that ultimately it is the 
Kenyan people who must determine the meaning of the March 4 
polls. However, it is the Institute's view based on its 
intensive work that the Kenyan Presidential elections were 
credible although the process had many flaws. Unanimous ruling 
by the Kenyan Supreme Court affirming the outcome of the 
elections which was accepted by Presidential candidate Raila 
Odinga after his legitimate challenge before the Court marks an 
important milestone.
    Elections are always the product of a political process and 
Kenya's 2013 elections resulted from popular reforms that not 
only set the stage for the vote and for the country to redeem 
its reputation. Therefore, Mr. Chairman, it is important that 
we look beyond the Presidential elections. For instance, the 
Jubilee Coalition headed by Uhuru Kenyatta, won 195 of the 349 
National Assembly seats while the Coalition for Reform and 
Democracy, headed by Raila Odinga, won 143. In the new Senate, 
Jubilee secured 34 seats, while CORD won 27 of the 67 seats. At 
the county level, Jubilee has 24 governors, CORD has 23. And 
while Jubilee controls 26 county assemblies, CORD controls 21.
    Sadly, not one woman was elected to the Senate, nor was one 
woman elected governor. Mr. Chairman, this illustrates that 
there should not be a zero sum political attitude suggesting 
that the winner takes all and the loser loses all following the 
March elections. While there are likely to be substantial 
difficulties, especially in the devolution process, there's a 
basis for positive development, particularly if genuine 
political spaces maintain for opposition parties and dialogue 
and accountability efforts and a move away from impunity is 
guaranteed.
    Mr. Chairman, the Kenyan electoral process presents lessons 
that are useful when considering other countries and other 
elections in Africa and beyond. A few of the most salient are 
as follows: Ultimately, it is the people of a country who 
determine the credibility of their elections and the country's 
democratic development. Additionally, while elections are a key 
ingredient of democracy, it should be understood that they are 
not synonymous with democracy. Thus, there is much more to be 
done to advance Kenya's democratic process.
    Secondly, assistance by the international community to 
support democratic processes should begin early and be robust, 
coordinated and conducted in a proactive manner that respects 
the sovereignty of the host country. In this sense, election 
assistance must be seen as much more than a technical matter 
and should address important factors in the broader political 
environment, which was done in Kenya.
    Third, systematic observation of election processes by 
nonpartisan citizen election monitoring organizations and 
international observers, which engage constructively with 
election management bodies, can make vital contributions to 
improving electoral integrity and public confidence. Such 
systematic, credible, independent verifications were not 
present in the 2007 elections.
    Fourth, developing reliable communication among political 
parties and electoral authorities can improve the credibility 
of election processes and mitigate potentials for election-
related violence. The efforts of the IEBC and the political 
parties through the Political Parties Liaison Committees at the 
national and county levels increased the potential for 
peaceful, credible elections, including over the tense election 
results.
    Finally, Mr. Chair, there appears to be an emerging 
adherence to the rule of law and recourse to the courts for 
resolution of election-related disputes as opposed to past 
practices of taking to the streets and inciting violence. The 
court cases in Kenya and Ghana challenging the election results 
were watershed moments for the African democratization process, 
especially because the contestants accepted the authority of 
the country's highest courts in both cases.
    In conclusion, Mr. Chair, it is clear that the recent 
Kenyan electoral process represents a reversal of the country's 
2007, 2008 electoral violence. In fact, the elections and the 
challenges to the results strengthened the democratic 
institutions of Kenya and hopefully will serve as a hallmark in 
steering the country toward a culture of peace and tolerance 
during future elections. NDI stands ready to continue to assist 
the country. Thank you.
    [The prepared statement of Mr. Jennings follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Jennings, thank you very much as well and 
now Mr. Sweeney, please.

 STATEMENT OF MR. BILL SWEENEY, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, INTERNATIONAL FOUNDATION FOR ELECTORAL SYSTEMS

    Mr. Sweeney. Thank you, Mr. Chairman, and Ranking Minority 
Member Bass, for the opportunity to testify before the 
subcommittee on the recent general elections in Kenya. IFES, in 
a joint venture with the other organizations represented here 
today, received a grant from USAID in May 2011 to provide 
technical assistance to build the capability and sustainability 
of the newly-formed Independent Electoral and Boundaries 
Commission known as the IEBC. I was in Kenya during this 
election and had the chance to meet with Chairman Ahmed Hassan 
and the IEBC Commissioners on several occasions. ``Kenya will 
not burn'' is what Chairman Hassan said to me. His message was 
powerful, memorable, and accurate.
    Mr. Chairman, IFES was able to work with the new election 
commission to implement a number of very high profile reforms. 
These include five major pieces of new legislation, creating 
systems to handle political party registration and candidate 
nomination, redistricting of electoral boundaries, registration 
of 14.3 million voters in less than 1 month, recruitment and 
deployment of 260,000 new poll workers and introduction of 
biometric voter registration, electronic voter identification 
and a results management system. This and more was accomplished 
in under 15 months. The scale of what the IEBC was able to 
accomplish was ambitious and impressive even for the most 
seasoned election commissions. This election has been 
recognized as peaceful and credible by most international and 
domestic stakeholders. Nevertheless, it does raise at least one 
key question for development agencies and implementing 
organizations. How can we better help our partners manage 
expectations when a society demands more change in public 
administration at a faster pace than can be realistically 
implemented?
    In Kenya, there was an attempt to implement too much 
technology in too short a time. In countries where there is a 
trust deficit due to both past behaviors and suspicions about 
the process, the choice often is new election technology. There 
are issues around adapting, procuring and then deploying new 
technology in any political environment. In Kenya, due to 
massive pressure from the political leaders of all parties and 
civil society, the IEBC decided to implement three new 
technologies simultaneously, technologies that were dependent 
on infrastructure such as reliable electric power and 
accessible cellular channels. This situation is where 
international technical assistance from trusted organizations 
can make a difference.
    Some possible outcomes, such as abandoning paper lists at 
polling stations and completely entrusting new technology, can 
be walked back. Other decisions can be implemented as best as 
possible with the partnership of experienced global personnel 
who know technology and the election process from decades of 
experience. Election technology, in general, is a great 
innovation and can enhance the trust, transparency and speed of 
information on Election Day. However, the technology has to 
work perfectly on Election Day. The election workers have to be 
trained in how to use the technology. The technology, like all 
other voting supplies, has to be distributed to the polling 
places on time. These are all serious, logical issues for every 
election commission.
    The Kenya assistance model represents a true partnership 
and reinforces the importance of international support to 
election management bodies. Elections are a process, not just 
an event. The IEBC and IFES are already reviewing lessons 
learned in how to prepare the reform agenda toward the next 
elections scheduled for August 2017.
    Mr. Chairman and members, thank you for your time. This 
concludes my remarks.
    [The prepared statement of Mr. Sweeney follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Sweeney. And the 
information you've conveyed, I think is astounding, 14.3 
million voters signed up in less than a month; 32,000 
electronic voter identification systems and the list goes on. 
I'm wondering, you did say that the failures in technology were 
really failures of project management. I wonder if you might 
want to elaborate on that. I have two brothers who are pilots, 
and they'll always be the first one to say that it's often not 
the machine, it's pilot error. So are we talking about people 
didn't know the process? How would you elaborate on this 
failure of project management, if you would?
    Mr. Sweeney. Thank you, Mr. Chairman, and first of all, I 
would never ascribe anything to pilot error.
    Mr. Smith. Okay. You must be a pilot.
    Mr. Sweeney. However, in the case of Kenya, for example, 
they accomplished great things. Their registration system 
involves a photograph and fingerprints. Those were organized 
onto machines for the 1,000 voters per polling station and the 
voters would then use their thumb on the machine so as to pull 
up identification. That was great as long as either there was 
electricity in the classroom where the polling place was taking 
place or the batteries worked. Now batteries are funny things. 
Sometimes they say they'll work for 12 hours, but then they're 
not completely charged and sometimes they run out of power 
because to take a thumbprint is a very large draw on a battery. 
And so 1,000 people over the course of a number of hours, the 
batteries in some cases failed.
    Now, there was a point where the political process and 
civil society said don't continue with the investment in the 
paper list. Let's completely rely on technology. The IEBC was 
able to make the point that, first of all, the paper list was 
what was the official register of voters as stated in the law 
that might not have been as fancy and as glitzy, but it was the 
official register. And secondly, if electric power or battery 
power failed, you had the backup. But finally, third, the 
election commission invested seriously in the identification 
process, so there were actual photo IDs next--photographs of 
every voter next to their name because they had gone through 
the registration process. And the list was constructed so that 
it could be used by a polling worker or a series of polling 
workers over the course of a 12-hour day, be flipped back and 
forth and not fall apart. Frankly, in my experience it was one 
of the best voter booklets I had ever seen.
    Mr. Smith. Including here, right?
    Mr. Sweeney. One of the best I had ever seen, sir. I don't 
choose to revise and extend.
    Mr. Smith. Okay.
    Mr. Sweeney. But it worked. And so if the electronic system 
didn't work, they had the official register of voters with 
photo IDs in a format that allowed every voter to be serviced 
by those poll workers. That's an example, if you will, of where 
technology was great when it worked and it was really 
impressive to see person after person put their thumbprint 
down, see their voter ID come up on that computer screen until 
the battery gave out. So these are some of the issues that 
you're dealing with. You noted generously in your testimony in 
your comments that IFES went out and purchased both cell 
phones, as well as SIM cards. Because of the lateness of the 
procurement by the IEBC on the cellular phones and the 
distribution of them, there were logistical issues in getting 
all of that out to all of the polling stations and there were 
training issues where frankly, I suspect, that some of the 
polling workers did not know how to put the new SIM cards into 
the old phones which resulted in problems. This is, quite 
frankly, not unforeseen, not a surprise. The Kenyan election 
law allowed both for a provisional vote system so that you had 
information for the first 3 days. That was always considered 
provisional and not official and then the election commission 
had 7 days to go through the process of a hand count of all of 
the materials as they came into Nairobi. That was all 
anticipated in the law, as was the period of the appeal process 
and judicial review. And these were all steps forward because 
of the disaster of 2007.
    Mr. Smith. It would appear, and all three of you can back 
this up one way or the other, that the IEBC had a very capable 
group of talented leaders who not only were well trained, but 
were also situation awareness types that got the job done, 
especially in light of the deadlines. You mentioned numerous 
political agendas. I'm not sure what that means, but you might 
want to speak to the importance of having very talented people 
that you saw on the job like at the IEBC in making this really 
happen. Because I have met with election commissions all over 
Africa, all over the world, frankly, and some leave a lot to be 
desired. They're handmade in the ruling party and they just do 
whatever the ruling party wants and when there's a contested 
election, they find more likely as we saw in Ethiopia in favor 
of what the ruling party wants. If you could speak to that, the 
talent.
    Mr. Sweeney. Mr. Chairman, if I can, first of all, if you 
looked at the criteria to become appointed a member of the 
IEBC, there were over 150 candidates considered by the 
Parliament. They had to produce their police records as to 
whether or not there were any arrests or liens, their income 
tax forms, all of their political activity. They had to swear 
not to run for office, I think, 5 to 7 years after this 
election. They took, to my way of thinking, probably the most 
difficult election commission to be a member of is India's, and 
they took the India standard, which only allows career civil 
servants who have got an unblemished record after 20 years of 
service to become members of the election commission. They took 
the Indian standard to a higher threshold.
    And the amount of disclosure that these candidates for 
IEBC, all of the candidates have to submit to their Parliament 
for selection was by any standard simply amazing. Income tax 
forms, police forms, academic records, everything and then 
these men and women were selected and they were dedicated to 
fulfilling their mission to their country. I know almost all of 
the IEBC members having met with them individually and 
collectively a number of times over the last 3 years. It is a 
tremendous group of very committed public servants who come 
from all walks of life. There was a chemistry teacher from 
middle schools. There was a former Ambassador to the United 
States who had been a career public servant. There was a 
lawyer. There was an accountant. It was a tremendous group of 
people who have committed themselves to Kenya's democracy.
    Mr. Jennings. Mr. Chairman, I would just add that all of 
the things that my colleague from IFES just said is true. 
However, this is a political process and there was a moment 
when the public confidence in the IEBC was lost. That's during 
the procurement process. There were accusations made of a 
number of the members and when the State House, the equivalent 
of the White House intervened, it created a problem. And that 
problem was difficult to overcome. We worked with the chairman 
for at least 5 years before he was even the chair of the 
Commission. So in terms of impugning someone's reputation 
that's not what I'm trying to point out here, because I think 
these are well-known public servants. But in the political 
process, whether it was true or not, a problem was created 
because of the procurement issue.
    The second thing I would add, sir, is that while there were 
these flaws, we still have to look at the progress that has 
been made in Kenya, a significant progress, a revolutionary 
Constitution, the best--one of the best on the continent. 
Besides the Constitution itself, the reform of the courts and 
perhaps the reason that Raila Odinga went to the courts was 
because of the confidence people now have. And now the 
devolutionary process, 47 new states have been created with new 
assemblies.
    So while the IEBC's vetting process took place, judges also 
had to be vetted. And this devolutionary process is very 
dynamic. It will be difficult for progress to be made in the 
short term and I think from the aid effect in this point of 
view that's one thing we have to watch. The short term 
pressures of an electoral process versus the long term 
sustainable development challenges that we face, especially in 
a country like Kenya that is the hub for security and 
communications and East Africa. If what we did was good enough 
to save one life, I don't think we should put a dollar value on 
it. And I think that in this particular case the Kenyan people 
are the ones who should be congratulated because they have made 
up their mind through their various peace campaigns that they 
were not going to go back to the violence of the past.
    Mr. Smith. Mr. Fagan.
    Mr. Fagan. I'll just speak quickly to this point because I 
believe my colleagues covered it very well. But I think 
Chairman Hassan did a good job. I saw him when he was in 
Nigeria for those elections observing just like me. So he took 
his role very seriously and even went to other African 
elections to see how other institutions were working. And I 
think that's an important thing for a lot of these chairmen of 
the election commissions to do is to get to know other 
elections on the continent. And Nigeria in 2011 was probably 
one of the best ones he could have witnessed.
    As Dr. Jennings mentioned, prior to the election there was 
controversy. There was a crisis in their public image because 
of the biometric voter registration procurement issue. They 
probably could have done a much better job in communicating to 
people, but I think even in the last period between the 
election and the election results, they kept people informed. 
They told people about their mistakes. They kept people 
informed which was good. What we think is important, but what 
the Kenyan people believe is much more important. And you have 
about 50 percent of the population that probably very much 
respects the IEBC, but maybe slightly almost 50 percent that 
might not. We have to remember that other side of the country. 
So while they conducted themselves very well, we have to 
remember what the Kenyans think.
    And we also have to remember not just the Presidential 
elections were held, Kenyans voted for five other elective 
positions. And I don't know the numbers, but very few 
challenges to those positions. So all in all, I would say a 
good elections process and a job done well by the IEBC. A lot 
of lessons learned, but a good job.
    Mr. Smith. Mr. Fagan, you said in your testimony that Prime 
Minister Odinga even commented that Kenya could not be run via 
Skype at The Hague in reference to the pending ICC trials 
against Kenyatta and his running mate. I'm wondering if the 
U.S. position on that, the warning that was issued earlier on, 
have any impact? Did it swing in either way? Was it a 
nonfactor, and people just decided on their own who it is that 
they wanted to support?
    Mr. Fagan. You know, I can't speak for Kenyans on whether 
the international community's position on the Presidential 
candidates impacted their votes. I think some people will say 
maybe that emboldened some people to vote more because they 
wanted to say this is a Kenyan election, this is our process, 
we don't want the interference of the international community. 
So it's hard to say whether or not the international 
community's stance which was never fully--they never fully 
endorsed one candidate over another, but certainly there were 
some statements made by officials from our Government and other 
EU governments which probably slightly favored one candidate 
over another. Just be careful how Kenyans voted because of the 
repercussions that could be made. But those repercussions we 
don't know yet. Both President Kenyatta and Vice President Ruto 
have been cooperating with the ICC. And as long as they 
cooperate, I think the U.S. Government and other governments 
will have to take that into consideration in how they deal with 
them.
    When we look at Zimbabwe and we look at the sanctions on 
those leaders, the U.S. Government still deals with those 
leaders obviously. President Mugabe is not allowed in this 
country, but we still have an Ambassador there. We will have an 
Ambassador who has presented his credentials to Mugabe, so 
there are a lot of ways to deal with the Kenyan Government. And 
I think the United States will find ways to do that because it 
is such an important ally.
    Mr. Smith. Finally, the role of faith-based NGOs in civil 
society in promoting participation as well as nonviolence, and 
Dr. Jennings, I think your point made about needing to look 
beyond just the Presidential elections, that breakdown of 
Jubilee versus the Coalition for Reform in Democracy looks like 
there are a whole lot of contested elections with not an equal, 
but a very credible, outcome that people were picking and 
choosing rather effectively. They didn't just go for one side.
    Mr. Fagan, you talked about how important it was for some 
to be at other elections like in Nigeria. Were there many other 
Africans, particularly those who were in the queue this year 
and next, observing and drawing some good lessons?
    I know, Mr. Sweeney, you said there will be an event very 
soon on lessons learned. Please convey that if you would to the 
subcommittee so we can send it out based on your insights and 
others as well. But if you touch on that, I'll yield to my 
friend, Ms. Bass.
    Mr. Jennings. Thank you, Mr. Chairman. We can't forget how 
polarized this environment was. It was quite a volatile 
situation and so any advantage that either the major 
contestants could find, they would make use of. I think for the 
record we should state and understand President Obama's 
statement was very well received. It wasn't seen as being 
controversial at all. There were other statements that people 
tried to say contradicted President Obama's statement. And 
there was more of a nationalist tone of, ``respect our 
sovereignty'' position was taken by a number of the 
contestants.
    It's understandable in a political situation that is as 
close as it was and everybody predicted. In fact, we thought 
there would be a runoff, but the numbers and the results proved 
that it's still a fairly divided country.
    Let me just say on the faith-based participation, it was 
massive and there were calls for peace for more than a year. 
The calls were so resounding that many people said they had 
peace fatigue, but whether it was the churches or the mosques 
or the synagogues, everyone was calling for peace and that's 
what I was saying, referring to earlier, that it was the Kenyan 
people who had determined. Sadly, 19 deaths did take place. But 
compared to past electoral violence, not only 2007, but all the 
past elections, it's a very tiny amount of deaths.
    With respect to the public, I think the role that the media 
played was significant. There were--people felt like they had 
clear choices here because of the role of the public debates 
that took place and they knew what they were voting for. And 
again, I think the numbers suggest that the society is fairly 
clear about which candidate they wanted to vote for.
    Under this is something that we may be a bit uncomfortable 
discussing and that is the fact of ethnic divisions that exist 
within Kenya, but I think that Mr. Kenyatta and Mr. Ruto are 
together in an unlikely coalition and so they should be up to 
the task of managing the diversity of that country. And I think 
that's the lesson that again is something that can be shared 
with others in Africa. Thank you, sir.
    Mr. Smith. Thank you.
    Mr. Sweeney. Mr. Chairman, I'd just make two or three quick 
points. Number one, the election commissions in Africa have a 
history of observing each other's elections. There's a great 
deal of learning, a great deal of shared experiences. IFES and 
others help facilitate that. We had colleagues from the 
Liberian election commission as part of our team in Kenya. We 
hosted an evening of the South African, Nigerian, Liberian, and 
Kenyan election officials before the election so they could 
compare notes and then follow up afterwards. There were also a 
number of senior election administrators from a number of 
countries who were part of either the Commonwealth observation 
delegation or the European Union delegation. Former Chairman 
Quraishi of India who was very much a mentor to the Kenyan 
process was there as a member of the Commonwealth delegation. 
So within the industry, if you will, there was a great number 
of lessons learned from other experiences that were then 
finally applied in Kenya, but there's never such a thing as a 
perfect election. So we know that some of those experiences 
will then show up in trainings and conferences in other 
countries. That's part of the election administration 
profession. So that was very robust, both before the Kenyan 
election, the IEBC members were very involved in learning from 
other societies and countries and that was evident in both the 
evolution and passage of five new election laws as well as 
other issues throughout the entire process.
    Secondly, the issue that you raised was known to all Kenyan 
citizens. This was not a secret. It was a matter of public 
debate. They voted and they elected a team that was well aware 
of the questions raised by the ICC. This is not a secret, and 
it's up to Kenyans as to how they voted and how those campaigns 
projected that information out to their voters. No one was shy 
about it from what I could see. It was a matter of public 
debate.
    My final point would be that we are already working with 
the Kenyan election commission looking at what went wrong, what 
went right, what we could do better. Some issues are in the 
law. Some issues were in the process of public procurement. 
Some issues were in communications. Every election commission 
that is professional takes a look at what happened last month 
and tries to figure out what is best. And today's Kenyan 
Supreme Court comments on the procurement process I'm sure will 
be part of the lessons learned.
    Mr. Smith. Ms. Bass?
    Ms. Bass. Thank you very much, Mr. Chair. I just want to 
take where you were, just commenting Mr. Sweeney about no 
election is perfect. You know, I don't want to discount in any 
way, shape, or form the violence that took place this time and 
of course, the violence that took place the last time, but you 
know, from your testimony, I think that there's been a lot to 
be admired. I was joking with the chair, I don't know when we 
had an election turnout where there was 86 percent. I don't 
think we'd know what to do.
    I do think we really do, and as a couple of the witnesses 
said, we need to look at this election in the context of a 
particular situation.
    So I wanted to ask a few questions, I believe Dr. Jennings 
you were mentioning that there were no women that were elected 
as governor or to the upper chamber of the Parliament and that 
there were 96 female candidates. How many were elected though 
to other positions?
    Mr. Jennings. Ms. Bass, let me clarify. There were none 
elected, but there were 18 who had been appointed in the 
Senate.
    Ms. Bass. Oh, I see.
    Mr. Jennings. But out of the 416 members of Parliament, 85 
women are there. In the new constitutional arrangement, there 
was supposed to be----
    Ms. Bass. Almost our ratio. I think it's a little more.
    Mr. Jennings. About 17 percent in the U.S. Congress. But 
the point that we were making is that they weren't elected.
    Ms. Bass. I understand. They were appointed. Okay. And in 
terms of the technology and machines, where were they made? 
Where were the voting machines from? The machines that you were 
talking about that required the battery, electricity, where 
were they from?
    Mr. Sweeney. I don't know the exact source of where they 
were manufactured. The biometric identification system was done 
by a Canadian firm. The results transmission, I know the phones 
were primarily Nokia phones, but I can't tell you where they 
were manufactured. The voter registration process, I'll have to 
get back to you with the exact locales of the firms involved.
    Ms. Bass. Okay, I'm interested in that and in particular 
because Dr. Jennings, you were pointing out the problems with 
procurement. Were you referring to the procurement of this 
technology or were there other procurement issues as well?
    Mr. Jennings. The procurement of some of the technology 
that was just mentioned, yes.
    Ms. Bass. In regard to the ICC, I wanted to know if you 
could--any of you, could speak to the views of the Kenyan 
public in general toward the ICC and then in particular, the 
specific case, the Kenyan case. And do you expect President 
Kenyatta and Deputy President Ruto to continue to comply? 
Aren't they due in the next couple of months to go before the 
ICC?
    Mr. Jennings. The Vice President has a case at the end of 
May. And the President has to respond at the end of July.
    Ms. Bass. Do you expect them to go?
    Mr. Jennings. It's not an issue that NDI covers, ma'am. 
What I've mentioned earlier is that the polarization was, in 
part, a result of the fact that you had a contestant and his 
running mate that had been indicted by the ICC. And prior to 
the election process taking place, the visit by President--the 
Sudanese President to Kenya had become a big issue. So it's 
only in the political context that we were commenting on it, 
but NDI doesn't take a position on the ICC or whether or not 
the candidates will comply.
    Ms. Bass. Okay, and I didn't mean you'd take a position. I 
just wanted to know your opinions. Maybe the other two 
witnesses can respond. What do you think is going to happen? 
Wasn't there an issue before as to whether the witnesses would 
show up, the witnesses that have made charges against both the 
President and Deputy.
    Mr. Fagan. Well, what I would say is just base it on what 
they, themselves, had said during the election campaign, during 
the two debates that took place. President Kenyatta, now 
President Kenyatta, then Deputy Prime Minister, indicated that 
he would continue to work with the ICC and attend the hearings, 
whether he and Vice President Ruto do that, we'll see. They 
have indicated they will cooperate. But if they go, I don't 
think we can base it on anything until they go. And that's 
when--yeah. So we'll have to see.
    Mr. Jennings. In the President's inaugural address, he said 
that he will continue cooperate with international 
organizations.
    Ms. Bass. Mr. Sweeney, did you want to say something?
    Mr. Sweeney. I would just take him at his word, ma'am.
    Ms. Bass. Okay. What is your assessment of rumors that the 
new Kenyatta government may push for restrictions on civil 
society? Have you heard those rumors? Do you have any thoughts 
about them?
    Mr. Jennings. Actually, it's an unfortunate situation. We 
are very concerned about space being maintained for civil 
society. The reforms that we are all congratulating the Kenyans 
about actually were largely a result of active civil society 
pushing for these reforms for more than two decades. There's a 
bill that was recently adopted and it just coincides with the 
election of President Kenyatta, but that bill was promulgated 
prior to his election which does close space.
    Just recently as in yesterday, more than 8,500 civil 
society organizations have reapplied for their registration. 
And one of the things that we have said and we would hope that 
the new government would pay attention to is that as long as 
there is space for a vibrant civil society, then it is possible 
that these reforms can be achieved. And that is the real 
measure of whether or not the investments made by governments 
like the United States or other governments was worth the 
investment or not because that's at the end of the day, whether 
the Kenyan people can live in a democratic society and there's 
an inclusive social and economic development process is the 
real measure of what we do.
    Ms. Bass. Can you tell me what you think Odinga's role will 
be now? Especially when I was looking at the ratios in terms of 
the majority and minority parties, they're almost neck and 
neck. Does he continue to play a leading role in opposition 
even though he lost the election? What do you anticipate from 
him?
    Mr. Fagan. Raila Odinga has been in politics his whole 
life.
    Ms. Bass. Right.
    Mr. Fagan. His father was the first Vice President. 
Kenyatta's father was the first President.
    Ms. Bass. Right.
    Mr. Fagan. So historically, he's been connected to the 
politics of that country since probably his birth. So I would 
expect Raila Odinga to continue to play a prominent role in 
politics. Will he run for President again? I don't know. 
Anything is possible.
    If you look at history, if you look at Raila Odinga, if you 
look at the major political actors over the past, I would say 
even two decades, they reinvent themselves. They join different 
political parties----
    Ms. Bass. We know about that, too.
    Mr. Fagan. There's a lot of party hopping. He joined KANU 
as the ruling party. He was thrown in jail under KANU and 
President Moi. I think Raila Odinga plays an important role in 
Kenya. He's a leader of one of the largest ethnic communities, 
but he's also a leader of many different political parties in 
the past and probably in the future. So he will continue to 
play a major role in this whole process. I don't doubt it. And 
I think maybe Dr. Jennings had mentioned this. President 
Kenyatta and Vice President Ruto were completely at odds in the 
last election.
    Ms. Bass. Right.
    Mr. Fagan. So anything can happen in Kenyan politics. So I 
can't predict who is going to be doing what probably in the 
next 5 years or 2 years because these alliances could change 
very quickly.
    Ms. Bass. I know a number of the news reports this being 
his third try that he probably wouldn't run again.
    Mr. Jennings. Ms. Bass, I would say that as Mr. Sweeney 
said about Kenyatta, take him at his word, I think we can 
definitely take Raila Odinga at his word. During his 
congratulatory remarks to Mr. Kenyatta, he said we are now the 
official opposition. I think that he is an African leader, is 
well known on the continent of Africa, and he's been active as 
Paul mentioned for more than four decades. He's an 
international figure.
    Our understanding is that he's met twice already with Uhuru 
Kenyatta. What they talked about I have no way of knowing, but 
it would seem to me that to walk away from the numbers that I 
just read might not make sense.
    Ms. Bass. Right.
    Mr. Jennings. Now that doesn't mean that Ban Ki-moon won't 
offer him a position or something. I don't know. But it would 
seem that wherever he is in this world that I think he is a 
committed democratic activist and he wants to see Kenya be 
democratic.
    There's a saying that Africa doesn't need big men, that it 
just needs strong institutions. I would amend that a little 
bit. I do believe that Africa needs good statesmen and good 
stateswomen and I think that what Raila Odinga did showed that 
he's a statesman and hopefully he'll continue to play that 
role.
    Mr. Sweeney. I have to agree with my colleagues. You look 
at his family. You look at his background. You look at 
everything the he's done in his life and it is very, very hard 
to imagine him not continuing to have an impact on Kenyan 
politics. But what that role and title will be, I think it will 
be up to his invention.
    Ms. Bass. Thank you. Thank you very much, Mr. Chair.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and I thank each of 
you for coming to testify today.
    Mr. Fagan, I'd like to start with you. You mentioned in 
your testimony about the political parties are still in need of 
reform as they are really not based on a platform or 
ideological point of view. Do you think locally politicians 
understand that that need for reform and I guess the second 
follow up to that is do you see that improving or changing?
    Mr. Fagan. I'm not pessimistic about the parties in Kenya, 
but if you do look at them from a holistic approach, especially 
in the past two election cycles, politicians jump from one 
political party to another.
    Under the 2002 elections, most of them coalesced around the 
NARC Coalition, basically to defeat KANU and Uhuru Kenyatta in 
his first attempt at the presidency. So politics is a game of 
coalition building. And in and of itself is not a bad thing, 
but these political parties tend to be led by individuals that 
are driven by ethnic groupings. But when I think about these 
elections and even through these political parties, there's a 
lot of basis on ethnicity and where they come from and that's 
part of the calculus when putting these coalitions together, 
can we get the Luo population, can we get the Luhya population, 
can we get the Kalenjin population, which populations can we 
get? Can we get the Coast? Those calculations certainly go into 
it.
    But what I think what we saw in these elections was a lot 
of talk about issues, certainly. And I don't want to just keep 
on bringing up the Presidential debate, but that was historic, 
having two Presidential debates. And these debates, they put 
our debates to shame, no offense to President Obama or Governor 
Romney, but you knew exactly what they were going to say. These 
guys were going at each other, talking about the most troubling 
issues facing Kenya, the ICC, land issues, the issues that 
really matter to Kenyans. So I'm positive and optimistic that 
the political parties will be reformed. There needs to be a lot 
done on the internal processes.
    Mr. Meadows. So are you suggesting that as we reform those, 
the Presidential debates will become more like ours?
    Mr. Fagan. We'll see.
    Mr. Meadows. I hope not.
    Mr. Fagan. I hope not either. It was very refreshing to 
watch the debates, but I think the parties have a long way to 
go in the area of internal party democracy ensuring that more 
people are able to get to those elected positions fairly. 
There's a lot of money that goes around. Women were left out of 
the process quite a bit. So there needs to be a lot more done 
in the area of political party reform, especially in the area 
of financial reform.
    Mr. Meadows. And so as we look at that, are you saying that 
that's part of our focus is to help them with the reform and 
their political parties? Because that's a pretty far reach. 
We're taking really a world view in a society that culturally 
has been that way for a lot longer than we've been in existence 
in trying to say okay, we want you to be devoid of that and now 
all of a sudden support a platform and become political. Is 
that--I'll let each one of you.
    Dr. Jennings, can you comment on that?
    Mr. Jennings. I'd love to, sir. We've been working with 
political parties in Kenya specifically for the last 5 years. I 
think they've made tremendous progress. They may not 
necessarily be ideologically driven, but the issues now are 
being addressed more and more. They have put forth manifestos 
that did not come from some consultant somewhere who was hired 
to put it together for them. The parties are debating. One of 
the parties whose candidate was--in fact, the only woman 
running for President, their party was perhaps one of the best 
organized parties in Kenya. The TNA, Uhuru Kenyatta's party, 
those were real parties. I'm sure that if I was Kenyatta I 
would be trying to attract people to my side, too, when you 
look at the numbers within Parliament.
    I think it is an area that U.S. Government funding should 
continue. The work that we've done as a party institute is to 
try to support the building of more democratically-structured 
parties. And we've run campaigns that stick to the issues. If I 
vote for you because you're from my village, or from my 
neighborhood and I don't have water, well, what good is that to 
me if my real issue is having clean water and some sanitation. 
So by raising real issues it allows the political parties to be 
closer to the people and to structured a little bit 
differently. I think it is an appropriate area for U.S. 
Government support.
    Mr. Meadows. Mr. Sweeney?
    Mr. Sweeney. I'm going to answer this first from the IFES 
perspective and then the second from a personal perspective if 
I may indulge you.
    Mr. Meadows. Sure.
    Mr. Sweeney. From the IFES perspective, we work with the 
election management bodies. We leave the working with political 
parties to the party institutes and to other organizations like 
that around the world.
    On a personal basis, I worked with Chairman Fascell many, 
many years ago to help create the National Endowment for 
Democracy and the idea was that the political party model was 
something that we wanted to introduce as a country, as a 
philosophy into newly-emerging democratic systems. And by and 
large, I would argue that the introduction of the democratic 
model and the political party system as a way of organizing has 
served many countries very, very well and I commend the work of 
both the Republican and the Democratic and the German and the 
Austrian and a whole variety of other countries as they 
introduce their party models.
    Now speaking as someone who spent a decade working for a 
political party with the closeness of these numbers and the 
history of Kenya's moving alliances, it wouldn't surprise me if 
there's not going to be a fair amount of political reform in 
the next few years by the political parties as they try and 
address the electorate at the next election. And that's how it 
should be. And as long as that process is open and free and 
clear, that's one of the reasons why the National Endowment was 
created by the Congress after President Reagan's speech at 
Westminster that we're all remembering because of Mrs. 
Thatcher's funeral and it's an investment that's been paid off 
very, very well for by the democracies around the world that 
have invested in that dialogue in my judgment.
    Mr. Meadows. is there a danger where we look at the 
sovereignty of a nation like Kenya or any others and where we 
come in and try to assist them in that process where we 
infiltrate their world view? I don't sense that, but just 
thought I would----
    Mr. Sweeney. If I may respond, yes, there is the danger. 
But you're also dealing with the professional politicians of a 
country.
    Mr. Meadows. Right.
    Mr. Sweeney. And they tend to be able to speak up for their 
country, for their country men and women, for their own 
interests. These are not--these are professional politicians.
    Mr. Meadows. Sure.
    Mr. Sweeney. If you as an outsider, even in terms of our 
work with the technical side of running an election, if you 
cross over the line, you get pushed back. Your advice is not 
followed. You are no longer welcome and I suspect that's true 
of political party work as well.
    Mr. Meadows. Mr. Fagan?
    Mr. Fagan. What I would say in the case of Kenya in 
particular is when we're working with political parties and we 
haven't worked with political parties during this election 
cycle. NDI has done that much more, is that we'd be working 
with them on trying to follow their own laws.
    Mr. Meadows. Right.
    Mr. Fagan. So it's not as if we're trying to influence them 
on their ideology or what not. We're just trying to help them 
follow their own laws when----
    Mr. Meadows. Undergirding the rule of law and the 
importance thereof.
    Mr. Fagan. Exactly.
    Mr. Jennings. Mr. Meadows, it's important, the point that 
you raised, it can be perceived as imposition and so how you 
engage and how you work is very important. You have to adopt 
culture, the appropriate methods. We have to make sure that 
mutual respect, all of the principles of effective aid, respect 
for the host countries, understanding of who you are even.
    And the point that I was making earlier about tremendous 
progress, there were 33,000 polling streams and the Kenyan 
political parties, the two main parties, covered 80 percent of 
those or more. So the level of organization is there and they 
do want to learn from us, especially because Kenya is a hub for 
information and communications technology and innovations that 
have been made by the political parties, especially in the last 
two elections, they do want to understand that. So I think it's 
how we engage more than any kind of pushback on imposition.
    Mr. Meadows. Well said. Mr. Chairman, do I have time for 
one more question? Okay.
    Mr. Fagan, you mentioned the importance, I think in your 
testimony, of civic and nongovernmental organizations as they 
affected the voting, the role of the voters and education. What 
do you see as the greatest threat to that involvement of those 
NGOs or civic organizations because you said you know, we need 
to continue to grow that and there seemed to be an implication 
that if we didn't have that, then the whole system would be 
undermined. What do you see as the greatest threat?
    Mr. Fagan. Well, I don't think there would be a threat to 
our continued support to civil society. In fact, I think civil 
society plays a huge and important role in Kenyan society. And 
when I say civil society, I'm also including faith-based 
groups. This includes churches, mosques, and other groups that 
provide services to Kenyans in general when the government 
cannot.
    We work very closely with civic organizations throughout 
the country. I don't know how many counties our staff covered, 
but we trained directly 50,000 Kenyans. Our staff of about six 
to seven people training, going throughout the country and 
training people on what the election means, the whole 
devolution process, 50,000 people. And that doesn't include 
what we call our training of trainers programs which probably 
impacted hundreds of thousands and the radio programs that we 
sponsored which we hope millions of people listen to.
    So our support, whether it's through IRI, through the 
National Endowment for Democracy or the USAID, it's invaluable 
and right now I think the question was asked about this PBO, 
this public benefit law.
    Mr. Meadows. Right.
    Mr. Fagan. We don't know what kind of impact that will 
actually have on civic organizations. But the country that's 
being thrown around and I don't necessary believe this, is 
Ethiopia. Ethiopia has very strong laws against civic 
organizations and foreign funding. And we hope that doesn't 
happen in the Kenyan case.
    Civic organizations play an enormous role in Kenya. They 
were prominent in bringing multi-party democracy to Kenya in 
1992.
    Mr. Meadows. Right.
    Mr. Fagan. So they're very important.
    Mr. Meadows. So that would be the threat is to follow 
<greek-l>quote  deg.``the Ethiopian model'' that may or may not 
be active.
    Mr. Fagan. I hope not.
    Mr. Meadows. Okay, thank you. And I'll yield back to the 
chair, but I would ask if any of you have for your testimony, 
when you talk about the public procurement issues and what 
would be some of those issues that you could respond to the 
committee and let us know anything that needs to be highlighted 
and looked at from a congressional standpoint that would be 
very welcome. I thank each of you for your testimony and I 
yield back to the chairman.
    Mr. Smith. Mr. Meadows, thank you so very much. I would 
just note parenthetically that speaking about political 
parties, most of us have seen the absence of it in the chaos it 
produces when there isn't a family. And when there is a two-
party system, yes, other parties should participate but very 
often things don't happen. Governance is set back and it often 
leads to chaos. But I would note that Greg Simpkins was the 
Deputy Regional Director for IRI back in the early 1990s 
working on just that, building political parties. So on this 
committee, we're very appreciative to have him as our top 
African expert on the subcommittee.
    I'd like to now yield to the vice chairman of the 
committee, Mr. Weber, the gentleman from Texas.
    Mr. Weber. Thank you, Mr. Chairman, and following up your 
remarks about the absence of political parties that's probably 
why Mark Twain said he didn't vote for politicians because it 
just encouraged them. Maybe he was on to something there.
    Mr. Fagan, I've got some questions for you. Was IRI, well, 
actually, these are questions for all three of you. Was IRI 
involved in the 2007 election?
    Mr. Fagan. We had a program there, yes.
    Mr. Weber. You had a program. How about you, Dr. Jennings?
    Mr. Jennings. Yes, sir. We did not have a big program, but 
we were there.
    Mr. Weber. Mr. Sweeney?
    Mr. Sweeney. We had a modest program as well.
    Mr. Weber. Okay. At what point were you--you may have never 
left. These are questions for all three of you again. At what 
point were you all able to come back in. I mean there was a lot 
of violence. Did you have to exit because of that violence?
    Mr. Fagan. No. Staff was there through it. We've had a 
permanent presence on the ground since 2002. So there was no 
exodus whatsoever.
    Mr. Weber. So you all have been there the whole time.
    Mr. Fagan. Right.
    Mr. Weber. Dr. Jennings?
    Mr. Jennings. We did not evacuate our staff, but we were in 
touch. We only had a small staff of about five or six people. 
We were in touch with them on a regular basis during that 
period.
    Mr. Weber. Okay. Mr. Sweeney?
    Mr. Sweeney. Same.
    Mr. Weber. So it's safe to say that you all remained on the 
ground there during the last 6 years. At what point did you 
gear up to start ensuring that the 2013 elections were 
different?
    Mr. Jennings. In our case, shortly after we saw that the 
international observation failed, there were not civil society 
groups that were observing the election, and we thought that if 
there was a Parallel Vote Tabulation in 2007, maybe some of the 
violence could have been avoided. So we set out in our 
conversations with USAID and other development partners to say 
for the 2013 elections we think this is what needs to be done.
    Mr. Weber. When was that, was that in 2008, 2010?
    Mr. Jennings. Yes, in 2008.
    Mr. Weber. 2008.
    Mr. Jennings. We have a presence in Kenya since the mid-
1990s.
    Mr. Weber. Okay, I'm specifically focusing between the time 
of the 2007 to 2013.
    Mr. Sweeney, how about IFES?
    Mr. Sweeney. IFES was involved with--in dialogue with the 
election commission as it was being organized. They 
participated in our November 2010 election program here in the 
United States. Our meetings continued and I would say we 
staffed up in a major way and started a major program in the 
summer of 2011.
    Mr. Weber. Okay, so you all did not leave. You all were 
there and you had a presence on the ground and you started 
2007, 2008.
    And Mr. Fagan, when did you start gearing up for 2013?
    Mr. Fagan. We had continuous programs, so as soon as the 
violence died down and what not, we continued doing our work 
with our partners which at the time was mainly with Parliament, 
members of Parliament.
    Mr. Weber. Okay. So one of the complaints I heard you all 
testify about was the procurement process that it didn't go 
smoothly, it didn't run well. And if you all were there for so 
long, why didn't you all help them begin that process early, 
early on?
    Mr. Sweeney. I think the issues were mostly around the 
election commission's procurements. We did advise the election 
commission on a number of options. There were a number of 
procurements that took place. Some of those procurements became 
controversial, not all of them. The election commission 
followed it's own procedures on many. On some it frankly ran 
into some difficulties within their own government.
    Mr. Weber. Were they short funding?
    Mr. Sweeney. I'd have to check on the funding issue. 
Because we're dealing with a multiple of issues that created 
the perception that my colleague referenced.
    Mr. Weber. Okay, and Mr. Fagan, you said that women were 
supposed to be the big winners.
    Mr. Fagan. Right.
    Mr. Weber. But they really weren't. Number one, why were 
they supposed to be, and number two, why weren't they?
    Mr. Fagan. Well, under the new Constitution, they're 
supposed to have at least one third representation within all 
the legislative bodies and the courts actually ruled that this 
can be gradually implemented and not implemented----
    Mr. Weber. Okay, so the numbers just aren't there yet.
    Mr. Fagan. Correct.
    Mr. Weber. Okay. You also stated that Kenya benefitted from 
other international donors during your testimony. What other 
donors were you talking about?
    Mr. Fagan. I probably will let Keith talk more about that 
because we only had U.S. Government funding.
    Mr. Weber. Okay.
    Mr. Jennings. The European donors, the Norwegian Ministry 
of Foreign Affairs, the Dutch, the British also were very--
through their development organizations, they were very 
involved and may have been the largest contributor to the Kenya 
electoral process.
    Mr. Weber. Any Chinese money?
    Mr. Jennings. No. I think the Chinese position is that we 
are not involved in the political process. And that's based on 
my knowledge what takes place in other places----
    Mr. Weber. Above board, at least.
    Mr. Jennings. Yes.
    Mr. Weber. I'm getting back to what my colleague over here, 
Mr. Meadows said, what's the biggest threat? I'm trying to see 
if there's any other outside influences trying to come in and 
play in this arena.
    I think I hear you say, Dr. Jennings----
    Mr. Jennings. Well, the Chinese are very present and that's 
one of the issues that may have been fueling some of the more 
nationalist tendencies because there seems to be an alternative 
to the West. The Chinese were the first to congratulate Mr. 
Uhuru on his victory, even before the courts had ruled.
    Mr. Weber. Okay. Mr. Sweeney, you said that the elections 
were a process and not an event, I think was the way you stated 
that. There was a list that you said, the official paper list, 
when the electronics kind of bit the dust so to speak and 
someone maintained an official list. Who maintained that 
official list?
    Mr. Sweeney. The IEBC developed the voter list as part of 
the voter registration process. The list I referenced was a 
paper list that had photo identification that came off of the 
voter registration process so that if a voter came to a polling 
station and they were not using the computer-based biometric 
registration which was triggered by a thumbprint, they could 
then go to the official paper list and find that voter's 
information and that's what I was referencing, sir.
    Mr. Weber. And pardon my lack of knowledge on Kenya, do 
they all speak the same language?
    Mr. Sweeney. Yes and no. The official languages are English 
and Swahili, but there are many, there are about 40 to 50 
tribal languages as well.
    Mr. Weber. Right, okay.
    Mr. Sweeney. And in some places it differs in the level of 
fluency in those.
    Mr. Weber. Also, Mr. Sweeney, you said that the election 
law allowed for provisional ballots.
    Mr. Sweeney. No, there was provisional reporting.
    Mr. Weber. Provisional reporting.
    Mr. Sweeney. The way the system worked was on election 
night, they would count for the Presidential and they could 
report that count by cell phone to the national tally center.
    Mr. Weber. I got you.
    Mr. Sweeney. That provisional number was then made public, 
okay? To the media, to the political parties. However, that was 
subject to change.
    Mr. Weber. Subject to change. Here's my question about 
that.
    Mr. Sweeney. Yes, sir.
    Mr. Weber. How long was that law, if you will, or that 
ability to provisionally report in place? Did that exist in the 
2007 election?
    Mr. Sweeney. It did not exist in the 2007 election. The 
provisional results were accepted and broadcast by the election 
commission for 3 days following the election. Then the election 
commission announced that the provisional reporting system, 
which they were not satisfied with, was ending and now they 
were going to the official count. And the official count was 
reviewing the paper ballots and the election forms submitted by 
each polling station and then announcing those official results 
and they announced those official results over the course of 
the next 4-4\1/2\ days until they declared that they did not 
need to go to a runoff.
    Mr. Weber. Okay, I got you. And so I think it might have 
been you, Mr. Fagan, who said--I'm trying to remember multiple 
testimonies here, who said you think about 51 percent of the 
country, or maybe it was you, Dr. Jennings, believes in the 
system? I see the monkey getting on your back, Mr. Fagan.
    Mr. Fagan. I only said that because there was just over 50 
percent of the population that voted for Uhuru Kenyatta.
    Mr. Weber. So you're going strictly by voting numbers.
    Mr. Fagan. Correct.
    Mr. Weber. And then also, Mr. Sweeney, you said IEBC 
candidates were selected by the Parliament.
    Mr. Sweeney. Yes, sir.
    Mr. Weber. Two questions. How many are on the IEBC, number 
one, and is there that kind of faith in that board as well, on 
that commission?
    Mr. Sweeney. First of all, I believe it's an 11-person 
commission, but let me double check that for you.
    Mr. Weber. Okay.
    Mr. Sweeney. There were well over 150 candidates who 
applied for consideration to the Parliament. The Parliament had 
a specific screening committee and went through an exhaustive 
process to finally bring candidates before the Parliament to be 
voted on.
    Mr. Weber. High level integrity, better than the India 
model I think you said.
    Mr. Sweeney. That's what I said, sir. Yes, sir.
    Mr. Weber. Is there faith in the country in that process or 
were there cries of corruption, cronyism, favoritism?
    Mr. Sweeney. No, sir. I think the country was more than 
willing to entrust the IEBC with the responsibility for 
conducting the election. There was a number of public flurries 
around some procurement issues. There was some dissatisfaction 
when the provisional vote system did not work as well as 
expected. As one who was in some of those meetings, I can tell 
you the IEBC Commissioners and staff were even more 
dissatisfied than what was on the news media. But by and large, 
I think the country and after they went through the process 
which was established by the law, the Supreme Court was able to 
review all of that and Kenyans were able to credibly accept the 
results.
    Mr. Weber. Okay, and last question for you on that subject 
is--is there a--I started my questioning with you guys, how 
long were you there? Why didn't you act sooner, basically? We 
want to be gearing up perhaps for next elections. When is that?
    Mr. Jennings. 2017.
    Mr. Weber. 2017.
    Mr. Sweeney. The next elections are 2017.
    Mr. Weber. Is there a process in place with IEBC so that 
they're holding forums, whether it's town halls, public 
meetings? Do they hold their meetings openly? And are Kenyans 
getting in a chance to buy in and participate?
    Mr. Sweeney. As I said in my testimony, we're already in 
the process of planning the first meeting with the IEBC on the 
lessons learned and how do we go forward. Every election 
inevitably produces a set of reforms, some of which are 
legislative, some of which are administrative, some of which 
are simply practices.
    Mr. Weber. Okay.
    Mr. Sweeney. And I suspect all of that will be developed 
now that the court has ruled and the process is moving forward.
    Mr. Weber. And that will be in the public domain?
    Mr. Sweeney. Yes, sir.
    Mr. Weber. Okay. And then the last question, Dr. Jennings, 
you said that the judges had to be vetted.
    Mr. Jennings. Yes, sir.
    Mr. Weber. By who?
    Mr. Jennings. It was a public process that included people 
drawn from a number of places, but ultimately it was the 
Parliament.
    Mr. Weber. Okay.
    Mr. Jennings. Mr. Weber, let me just go back to one thing 
that you raised. Part of the reason that those of us who were 
not working with the IEBC raised this issue of the procurement, 
it was because they had the highest approval rating of any 
institution in the country. And so many Kenyans felt let down 
because they had invested so much confidence in the IEBC. And 
in the pre-election period, it was critical because of this 
polarization. So we're not attacking IEBC as being incompetent 
or as perhaps being corrupt. But it was the public perception 
and that way only because such a high standard had been held. 
And they had performed so well during the constitutional reform 
process. So I think it was the politics of the political 
environment that caused people to have less confidence. And the 
reason that this electoral reform issue is so important is 
because it's what now the opposition Raila Odinga has raised in 
his court challenge. That some of the counties, we should know 
soon, once the IEBC releases the official forms, may have voted 
more than 100 percent. We do know officially, 17 counties voted 
in the 90 percent rate. And that's why you have such an almost 
6 million versus 5\1/2\ million.
    Mr. Weber. I get that, when you talked about the 
procurement process. I think it was Mr. Sweeney in his remarks 
said that when you try to institute electronic, I forget how he 
said it, voting or whatever, a lot tried to be done in a short 
amount of time, basically. And so all I'm driving at is we want 
to make sure we have a policy in place that says by golly, they 
ought to be instituting that right now. They ought to be going 
back to that process, rebuilding that confidence and making 
sure this process is in place. That's what my questions were 
aimed at. Thank you.
    Mr. Chairman, I yield back.
    Mr. Smith. Thank you very much, Mr. Weber. Before I 
conclude, I just want to ask in your view will any of the 
election laws which obviously have been done very quickly have 
to be revisited and updates provided pursuant to lessons 
learned? And secondly, Mr. Sweeney, in your testimony you 
mentioned that election technology helps mitigate certain types 
of fraud, but it also opens the door to more technologically 
advanced forms of fraud. Perhaps you might want to elaborate on 
that and then we'll conclude.
    Mr. Sweeney. Thank you, Mr. Chairman. First of all, every 
election that I've seen results in an agenda for change for the 
next election. There will always be improvements in the 
process, and that's healthy. And I suspect that there will--I 
already know that there's discussion as to what parts of the 
Kenyan election law and regulation and process need to be 
changed, need to be looked at. And they will be looked at in a 
completely public way so as to maintain public trust and the 
integrity of the election process.
    In my testimony, I make the point that technology 
oftentimes has unanticipated consequences. And thus the 
stupidest way to try and steal an election is through ballot 
stuffing. Far better to figure out how to program the computers 
on results which is done far away.
    Now I will also say that we had some of the world's best 
experts in the computer process around elections so as to make 
certain that the Kenyan process was completely protected, 
contained, safe both from rumors about being hacked into and 
the reality of being hacked into. But you can see over time 
people try and think they're smarter than other systems.
    The one thing I would caution people about is not to live 
by anecdote. When you're living at trying to shift the outcome 
of a national election, you're not talking about one or two 
examples of voter fraud. You've got to find hundreds of 
thousands of votes cast. And in the case of Kenya, the IEBC 
spent months working to make sure that such errors, be they 
administrative and simply clerks writing down the wrong number, 
or deliberate, could not happen and that there was 
accountability. In the election forum per polling station, you 
had not only the signatures of all the election officials 
present who had management responsibilities, but all the party 
observers present by party, attesting to the fact that the 
number that was going on those forms were the numbers that they 
had all witnessed. And they were all under penalty of criminal 
law if they were lying. It was a very, very robust system. Very 
well thought out and then very well executed.
    Mr. Smith. Thank you.
    Mr. Jennings. Mr. Chairman, let me first say thank you for 
holding this hearing and giving us an opportunity to comment. I 
do think that the reason I said in the beginning of my 
statement that elections are political processes is precisely 
because of this. If you have a polarized political environment 
with one side getting 5\1/2\ million votes and another getting 
over 6 million, and the difference is 8,000 votes, our level of 
confidence in the Kenyan people's level of confidence has to be 
absolute, especially when the board that was in the Bomas 
returning center didn't add up. And so the logical thing for 
one side that's committed to the democratic process is to go to 
court. It was a legitimate decision by Odinga.
    Having said that, it is now up to those who have been 
elected and certified by the Supreme Court to continue to 
reform process. In my estimation, the electoral reform that is 
most needed is to the legal framework. There were a number of 
things unanswered. But I would also say and I'm sure that will 
be done because I know we're meeting with the political parties 
and that's on the agenda, but I would also say that this issue 
of space for civil society is one of the most critical things, 
but perhaps of all of the things the U.S. is well positioned, 
given our Federal system, to assist the Kenyans with is the 
devolution process. And I think there's a lot that can be 
learned whether it's the National Governors Association or the 
National Association of State and County and Local Officials 
that can be shared and that would make sense in this context.
    But I think that we have the luxury of sitting here. I'm 
not a politician. I don't have anything against politicians 
either, but I think in the heat of the moment in Kenya, the way 
that this election was handled and the role of the Supreme 
Court was absolutely critical and I think now people are 
willing to work together to move on for the future of that 
country.
    Mr. Fagan. Just getting back quickly to Mr. Weber's point 
of time, when looking at these elections of the next elections, 
now is the time to act. And I would echo what Dr. Jennings said 
especially in the area of where we should really look at our 
assistance would be on this devolution process and making sure 
it works. I know the ring gets larger. But also getting back to 
your point, about the laws, the electoral laws, I think it's a 
lot about enforcing the laws. A lot changed since 2010 with the 
new Constitution and therefore those laws need to be 
implemented, especially in the area of political party reform. 
We saw in the primaries they went--they didn't go as well as 
they could have. Parties missed deadlines, etcetera. So we 
really need or they need to really focus on just implementing 
their own laws. What else is there? But it is a constant 
process. I mean this is the first election held under this new 
Constitution and new framework. Obviously, changes will need to 
be reviewed and assessed. But I would implore upon them that 
they need to do it now rather than wait until 18 months before 
an election.
    Mr. Smith. Thank you. We will conclude the hearing. I do 
want to thank you for your extraordinary expertise. We benefit 
here, but most importantly people on the ground in Kenya and 
elsewhere are the greatest beneficiaries, so thank you for your 
leadership. Thank you for spending the better part of this 
afternoon conveying all of this wisdom to this subcommittee 
which we will use it and do our very best to see that you and 
your efforts are adequately resourced, particularly in these 
tough budget times. So thank you so very, very much and the 
hearing is adjourned.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         <F-dash>\<line-box><box><Rx><Rx><careof><Rx><bullet>s 
                     <F-dash><func.-of><Register>\

  Material submitted for the record by Keith Jennings, Ph.D., senior 
associate and regional director for Southern and East Africa, National 
                          Democratic Institute
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
